RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-7028
AMOS MAST, MENNO MAST, SAM MILLER, and AMMON SWARTZENTRUBER,
Petitioners,
v.
COUNTY OF FILLMORE and MINNESOTA POLLUTION CONTROL AGENCY,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of Amici Curiae Jewish Coalition for Religious Liberty and National
Committee for Amish Religious Freedom in Support of Petitioners in the foregoing
case contains 5,886 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 5, 2021.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

